AIR CARRIERS’ OUTSOURCING
 OF AIRCRAFT MAINTENANCE
   Federal Aviation Administration
    Report Number: AV-2008-090
   Date Issued: September 30, 2008
           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Review of Air Carriers’ Outsourcing                 Date:    September 30, 2008
           of Aircraft Maintenance
           Federal Aviation Administration
           Report Number AV-2008-090

  From:    David A. Dobbs                                           Reply to
                                                                    Attn. of:   JA-1
           Principal Assistant Inspector General
             for Auditing and Evaluation

    To:    Acting FAA Administrator

           At the request of the House Committee on Transportation and Infrastructure, we
           reviewed the Federal Aviation Administration’s (FAA) oversight of air carriers’
           outsourced aircraft maintenance. As of July 14, 2008, there were 4,159 domestic
           and 709 foreign repair stations certificated by FAA to perform maintenance on
           U.S. aircraft. When an air carrier uses an FAA-certificated repair station to repair
           its aircraft or parts, the repair station’s organization becomes an extension of the
           air carrier’s maintenance organization.

           Our audit objectives were to (1) identify the type and quantity of maintenance
           performed by external repair stations and (2) determine whether FAA is
           effectively monitoring air carriers’ oversight of external repair stations’ work and
           verifying that safety requirements are met. Exhibit A details our audit scope and
           methodology, and exhibit B lists the entities we visited or contacted.

           BACKGROUND
           Our work on outsourced maintenance has continually found that the issue is not
           where maintenance is performed but that maintenance requires effective oversight.
           Outsourced maintenance requires a multifaceted, risk-based oversight approach,
           and it is important that each of these elements work together successfully (see
           table 1 below).




                                                    i
         Table 1. Multiple Oversight Roles Involved in Outsourced Maintenance
                  Title                                 Oversight Role
       FAA Certificate           Assesses whether air carriers’ maintenance oversight
       Management Inspector      programs ensure domestic and foreign repair stations use
       (CMO)                     carrier procedures when repairing aircraft and parts.
       FAA Flight Standards      Ensures that FAA-certificated domestic repair stations
       District Office Inspector meet FAA standards.
       (FSDO)
       FAA International Field   Ensures that FAA-certificated foreign repair stations meet
       Office Inspector (IFO)    FAA standards.
       Foreign Aviation          Through agreements with Germany, France, Ireland, and
       Authority Inspector       Canada, certifies and oversees FAA-certificated or U.S.
                                 carrier-used aircraft repair stations in these countries
                                 (FAA has reserved the right to do random spot
                                 inspections).
       Air Carrier Auditor       Conducts pre-contract award and periodic follow-up
                                 audits of repair stations.
       Air Carrier On-Site       Provides full-time quality control at repair stations
       Technical Representative performing heavy aircraft checks to ensure they comply
                                 with the contract, FAA standards, and air carrier
                                 requirements.
       Repair Station Auditor    Conducts internal and external audits to ensure repair
                                 station and its subcontractors comply with FAA and air
                                 carriers’ standards.

When we reported on air carriers’ use of FAA-certificated repair stations in 2003,1
we recommended that FAA place greater emphasis on repair station oversight
rather than air carriers’ in-house maintenance facilities by (1) determining trends
in air carriers’ use of repair stations; (2) identifying heavily used repair stations
and performing frequent, detailed reviews; and (3) ensuring that foreign
authorities follow FAA standards in conducting inspections and provide FAA with
adequate documentation. In response, FAA began working closely with foreign
authorities to improve the surveillance they perform on FAA’s behalf and
implemented two new systems—one for inspectors to collect better information on
the quantity of repairs maintenance providers perform and one to provide risk-
based oversight for repair stations.

Our 2007 testimony before the House Transportation and Infrastructure
Committee stated that FAA needed to be vigilant in locating and monitoring the
most critical maintenance and ensuring inspectors are well-positioned and
properly trained to adequately oversee outsourced aircraft repairs. 2


1
    OIG Report Number AV-2003-047, “Review of Air Carriers’ Use of Aircraft Repair Stations,” July 8, 2003.
    OIG reports are available on our website: www.oig.dot.gov.
2
    OIG Testimony Number CC-2007-035, “Aviation Safety: FAA’s Oversight of Outsourced Maintenance Facilities,”
    March 29, 2007.


                                                      ii
RESULTS IN BRIEF
Air carriers are increasingly outsourcing maintenance to repair stations to reduce
operating costs. The nine major air carriers we reviewed 3 sent 71 percent of their
heavy airframe maintenance checks to repair stations in 2007, up from only
34 percent in 2003 (see figure 1). This work includes performing complete
teardowns of aircraft that can take up to 7 weeks to complete.
At these nine carriers, foreign                     Figure 1. Percentage of Heavy Airframe Maintenance Checks
repair   stations    performed                          Outsourced for Nine Major Air Carriers, 2003 to 2007

27 percent of outsourced heavy                                       1400
                                                                                          1212                                        1274
                                                                             1126                         1163           1208
airframe maintenance checks                                          1200




                                                      Total Checks
                                                                                                                                             71%
                                                                     1000
in 2007, up from 21 percent in                                                                                                  67%
                                                                      800                                                                    907
2003. While air carriers are                                          600
                                                                                                                 57%
                                                                                                                                815
                                                                                                 38%             662
increasingly contracting with                                         400
                                                                                    34%
                                                                                                 455
foreign companies for heavy                                           200           385

airframe maintenance, foreign                                           0
                                                                              2003         2004             2005           2006        2007
companies are also sending                                                                             Calendar Year

work to the United States.                           Source: Air carrier data
                                                                                           Total checks          Total outsourced


With the growing outsourcing
trend, FAA and air carriers must continually improve their oversight of repair
stations to ensure that safety measures keep pace with the changing nature of the
industry. Although FAA has taken important steps to move its safety oversight
toward a risk-based system, the Agency still faces challenges in determining
where the most critical maintenance occurs and ensuring sufficient oversight.

FAA needs to improve its system for determining how much and where
outsourced maintenance is performed. FAA set up a system in fiscal year (FY)
2007 for air carriers and repair stations to report the volume of outsourced repairs;
however, we found this system is inadequate as these reports are not mandatory.
Further, when carriers do voluntarily report this information, FAA does not
require that they list all repair stations performing repairs to critical components 4
or that FAA inspectors validate the information. Air carriers are only requested to
report their top 10 substantial maintenance 5 providers. As a result, the system
provides only limited data for FAA to use in targeting inspections. FAA plans to
issue revised guidance by the end of calendar year 2008 that will require carriers
3
    AirTran Airways, Alaska Airlines, America West Airlines, Continental Airlines, Delta Air Lines, JetBlue Airways,
    Northwest Airlines, Southwest Airlines, and United Airlines. American Airlines, the largest U.S. air carrier, has
    retained its heavy maintenance as opposed to making a significant shift to outsourcing; therefore, we did not include
    its outsourcing data in our review since it could skew the resulting data.
4
    For the purposes of this report, we use the term “critical components” to identify those components that are
    significant to the overall airworthiness of the aircraft, such as landing gear, brakes, and hydraulics. FAA does not
    use this term or include these types of components in its definition of substantial maintenance.
5
    FAA defines substantial maintenance as major airframe maintenance checks; significant engine work (e.g., complete
    teardown/overhaul); major alterations or major repairs performed on airframes, engines, or propellers; repairs made
    to emergency equipment; and/or aircraft painting.


                                                                       iii
to report the volume of repairs they outsource. However, the revisions, as
currently drafted, still do not require air carriers to report volume data for all
repairs of critical components and inspectors to validate the data.

Gathering adequate data to target inspections is important since FAA does not
have a specific policy governing when CMO inspectors should initially visit repair
stations performing substantial maintenance for air carriers. Instead, FAA allows
inspectors to rely on the air carriers’ initial audits as a basis for approval. FAA
permits this practice even if inspectors have found problems with the carrier’s
audit processes.

As a result, we found significant delays between FAA’s initial approval of repair
stations and its first inspections at those locations. For example, over a 3-year
period, CMO inspectors for an air carrier inspected only 4 of its 15 substantial
maintenance providers. Among those uninspected was a major foreign engine
repair facility. CMO inspectors did not visit this facility until 5 years after FAA
approved this facility for carrier use—even though the repair station had worked
on 39 of the 53 engines repaired for the air carrier.

At other repair stations that did not receive timely CMO inspections, problems
existed, such as untrained mechanics, lack of required tools, and unsafe storage of
aircraft parts. While these problems were not immediate safety-of-flight issues,
they could affect aircraft safety over time if left uncorrected. Without on-site FAA
inspections, there is no assurance that oversight of repair stations performing
substantial maintenance will be sufficient. FAA either needs to conduct an on-site
inspection before approving facilities for use or verify that the air carrier’s audit
process is effective.

FAA needs to ensure carriers and repair stations have strong oversight
systems. In addition to their own inspections, FAA inspectors must ensure that air
carriers and repair stations have strong audit systems to correct identified
deficiencies, as FAA relies heavily on air carriers’ oversight. While all the
carriers we visited had audit programs, we found that these programs were not
always effective. As a result, maintenance problems either went undetected or
reoccurred.

FAA has no requirement for when carriers must conduct a follow-up audit and
allows carriers to close findings based on written statements from repair stations
that they will take corrective actions. Therefore, it is critical that FAA inspectors
closely review air carrier audit findings; validate, while on site, that repair stations
corrected deficiencies; and fully document their results.

For example, at one heavy airframe repair station, all three types of oversight
failed—FAA, air carrier, and repair station. We found that two air carrier audits
and two FAA inspections (CMO and FSDO) failed to detect significant

                                          iv
weaknesses at this facility. These were not discovered until another major air
carrier’s pre-contract award audit found problems in the repair stations’
maintenance practices, such as not properly overseeing subcontractor
maintenance. The problems identified were so serious that repair station
management stopped operations for over a month so it could take corrective
actions.

In addition to periodic audits, air carriers have on-site personnel to monitor repairs
at heavy maintenance repair stations. However, FAA does not have any guidance
on how these personnel should examine and document their inspections, which has
resulted in an inconsistent level of oversight. For example, on-site personnel for
two carriers we reviewed only performed undocumented, on-the-spot inspections
of work at repair stations. As a result, the air carriers could not use the data for
trend analysis or ensure the repair station took corrective actions.

FAA needs to improve processes for documenting inspection results. We also
found that FAA inspectors did not consistently document or share inspection
results. We reported similar problems in 2003. In response, FAA began requiring
inspectors to include repair station names on inspection reports and document
areas that were inspected, the results, and corrective actions taken in the national
inspection database. However, we found the problem persists as FAA does not
have controls to ensure that inspectors adhere to this requirement or initiate
contact with other inspectors who may be reviewing the same repair station. As a
result, inspectors had incomplete data to prepare risk assessments, and identified
deficiencies went uncorrected.

For example, in one case we found that an inspector did not enter inspection
results in the database despite finding serious errors at a repair station that affected
24 nose landing gears repaired over 2 years for 1 of 3 air carriers using the facility.
This type of data is critical to FAA’s ability to perform risk-based assessments.
To illustrate, at the time of our review, this repair station had not received on-site
monitoring by CMO inspectors for air carriers using this facility for at least
5 years.

FAA should expedite actions to ensure air carriers better define their
maintenance procedures. We found that FAA does not require air carriers to
have specific guidance for outsourced repairs. Although FAA requires repair
stations to follow air carriers’ manuals, these manuals have been traditionally
geared toward in-house maintenance. Since repair stations may perform repairs
for various air carriers, all with different in-house procedures, FAA should ensure
that air carriers provide repair stations with well-defined maintenance procedures.

FAA recognizes the significance of this problem and is developing a rule to
require specific language in air carriers’ manuals for maintenance completed by


                                           v
external repair facilities. While this is an important step, the rule has been
indefinitely delayed. We are recommending that FAA take interim actions such as
encouraging written agreements between air carriers and repair stations to clearly
define maintenance responsibilities and processes.

SUMMARY OF RECOMMENDATIONS
We recommend that FAA enhance its oversight of air carriers’ outsourced aircraft
maintenance through several actions: (1) develop and implement an effective
system to determine how much and where critical maintenance is performed and
ensure CMO inspectors conduct initial and follow-up inspections to adequately
assess risks at substantial maintenance providers, (2) require inspectors to perform
detailed reviews of air carrier and repair station audits and corrective actions,
(3) establish controls to ensure inspectors document inspection findings in the
national database and review related findings by other inspectors, (4) ensure that
air carriers have specific guidance for outsourced repairs, and (5) encourage air
carriers and repair stations to develop agreements that clearly define maintenance
processes and responsibilities. We are making a total of seven recommendations,
which are listed on page 19.

SUMMARY OF AGENCY COMMENTS AND OFFICE OF
INSPECTOR GENERAL RESPONSE
We provided FAA with our draft report on August 22, 2008, and received FAA’s
formal response on September 26, 2008. FAA concurred with all seven
recommendations and agreed to take corrective actions.

For two recommendations, however, we are requesting that FAA provide
additional information as FAA’s response and planned actions did not fully
address our intent. FAA’s comments, our response, and actions required are fully
discussed on pages 20 through 21. FAA’s response is included in its entirety in
the appendix to this report.

We appreciate the courtesies and cooperation of FAA representatives during this
audit. If you have any questions concerning this report, please contact Lou Dixon,
Assistant Inspector General for Aviation and Special Program Audits at
(202) 366-0500 or Robin Koch, Program Director, at (404) 562-3770.

                                         #

cc: FAA Chief of Staff
    FAA Associate Administrator for Safety
    Anthony Williams, ABU-100
    Martin Gertel, M-1

                                         vi
                                   TABLE OF CONTENTS

FINDINGS ................................................................................................... 1
    Air Carriers Are Increasingly Using Contract Maintenance
    Providers To Perform Substantial Maintenance..................................... 1
    FAA Needs To Improve Its System for Determining How
    Much and Where Outsourced Maintenance Is Performed
    and Ensure Sufficient Inspection Coverage ........................................... 2
    FAA Relies Heavily on Air Carrier and Repair Station
    Audits, Which Are Not Always Sufficient To Correct
    Identified Deficiencies ............................................................................ 7
    FAA Needs To Improve Its Inspection Data Documentation................ 14
    FAA Should Ensure That Air Carriers Have Well-Defined
    Processes and Responsibilities for Outsourced
    Maintenance......................................................................................... 17

RECOMMENDATIONS............................................................................. 19

AGENCY COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE............................................................................ 20

EXHIBIT A. SCOPE, METHODOLOGY, AND PRIOR WORK................ 22

EXHIBIT B. ENTITIES VISITED OR CONTACTED ................................ 24

EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT ................... 27
                                                                                                                       1


FINDINGS
Air carriers are increasingly outsourcing maintenance to repair stations to reduce
operating costs. While FAA has taken important steps to move its safety oversight
toward a risk-based system, we found it still relies too heavily on air carriers’
oversight procedures, which are not always sufficient.               Specifically, we
determined that FAA did not (1) have an adequate system for determining how
much and where the most critical maintenance occurs; (2) have a specific policy
governing when CMO inspectors should visit repair stations performing
substantial maintenance; (3) require inspectors to validate that repair stations have
corrected deficiencies identified in air carrier audits; and (4) have adequate
controls to ensure that inspectors document inspection findings in the national
database and review related findings by other inspectors. As a result, FAA could
not effectively target its inspection resources to those repair stations providing the
highest volume of repairs, which caused deficiencies at repair stations to go
undetected or reoccur and prevented inspectors from obtaining sufficient data to
perform comprehensive risk assessments.

In addition, since many air carriers do not differentiate between in-house and
outsourced maintenance, FAA must ensure air carriers provide repair stations with
clearer guidance on how to perform maintenance and inspections at repair stations.
FAA is working to address this issue through a rulemaking change but needs to
pursue actions in the interim to establish agreements between air carriers and
repair stations on how maintenance is to be performed.

Air Carriers Are Increasingly Using Contract Maintenance Providers
To Perform Substantial Maintenance
Overall, major air carriers 6 outsourced an average of 64 percent of their
maintenance expenses in 2007, compared to only 37 percent in 1996. This work
includes everything from repairing critical components, such as landing gear and
engine overhauls, to performing heavy airframe checks.

The nine air carriers we reviewed sent 71 percent of their heavy airframe
maintenance checks to contract maintenance providers in calendar year 2007, up
from 34 percent in 2003. Foreign repair stations completed 246 (27 percent) of
these carriers’ 907 heavy airframe maintenance checks outsourced in 2007, up
from 21 percent in 2003. These maintenance checks were performed worldwide at
22 repair stations located in the United States, Canada, Mexico, Central America,
and Asia (see figure 2 on page 2).

6
    Alaska Airlines, America West Airlines, American Airlines, Continental Airlines, Delta Air Lines, Northwest
    Airlines, Southwest Airlines, United Airlines, and U.S. Airways. These are the major air carriers we have been
    monitoring since our last report in 2003. These carriers all outsource various levels of maintenance, including heavy
    airframe.


Findings
                                                                                2


  Figure 2. Locations of Repair Stations That Performed Heavy
    Airframe Maintenance for Nine Major Air Carriers in 2007

            Canada                                            Asia
                    69
                  661                                       79
                  17             United
                         81      States
         Mexico
           Central
           America

      Source: Air carrier data

While air carriers are increasingly contracting with foreign companies for heavy
airframe maintenance, foreign companies are also sending work to the United
States. There are approximately 1,200 FAA-certificated repair stations in the
United States that also have European Aviation Safety Agency certifications,
which allow them to perform repairs for foreign companies. Nationwide data are
not available for the amount of work that is coming into the United States;
however, data we obtained from 1 air carrier disclosed that 11 (24 percent) of the
46 customers using the air carrier for maintenance were foreign companies. In
addition, some airlines, such as American Airlines, perform all heavy airframe
maintenance in-house.

FAA Needs To Improve Its System for Determining How Much and
Where Outsourced Maintenance Is Performed and Ensure Sufficient
Inspection Coverage
With the growing outsourcing trend, FAA has taken important steps to move its
safety oversight toward a risk-based system. Further actions are needed, however,
as we identified problems with the frequency of inspections at 5 of the 15 repair
stations we reviewed, all of which performed a significant volume of substantial
maintenance for their air carrier customers. We determined that FAA needs to
improve its inspection coverage of outsourced maintenance by requiring
comprehensive data on how much and where critical maintenance is performed
and ensuring CMO inspectors perform initial and recurring on-site visits to repair
stations so that potential problems are identified and properly addressed.




Findings
                                                                                   3


FAA Still Does Not Have Comprehensive Data on How Much and Where
Outsourced Maintenance Is Performed
In 2003, we recommended that FAA determine what type of repairs air carriers
send to repair stations and which repair stations carriers use the most. In response,
FAA implemented a system in FY 2007 for both air carriers and repair stations to
submit quarterly utilization reports. These reports are supposed to show carriers’
or repair stations’ maintenance providers that have the highest volume of
maintenance activity and perform the most critical maintenance. We are
concerned, however, about the completeness and accuracy of the data submitted
because FAA does not require air carriers to (1) report all high-volume repair
stations or (2) consistently categorize all repair stations that provide maintenance
of critical components as “substantial maintenance providers” (e.g., landing gear
repair facilities).

FAA only directs air carriers to report their top 10 substantial maintenance
providers. Air carriers formulate this list quarterly according to the number of
requests for service that repair stations receive rather than the volume of repairs
they perform. Therefore, the reports can omit high-volume, critical component
maintenance providers that may have received fewer service requests. For
example, if four emergency evacuation slides are sent to a repair station
individually each slide is counted as a separate request. However, 30 emergency
evacuation slides sent to a repair station at once are counted as 1 service request.
The provider that only repaired 4 slides would then receive a higher reporting
priority over the provider that repaired 30 slides. As a result, a high-volume
substantial maintenance provider would be omitted from the quarterly report just
on the basis of the shipping method the carrier uses to send its emergency
evacuation slides to its vendor.

Our review of air carriers’ reports submitted to FAA confirmed inconsistencies in
data reporting.       For example, some of the reports only included the
top 10 substantial maintenance providers, as requested by FAA. Others contained
a mix of both substantial maintenance providers and high-volume, critical
component vendors, such as those providers that repair wheels and brakes. In our
view, including high-volume critical components would benefit FAA’s oversight
efforts. If the reports are to be an effective means for FAA to track and accurately
target those repair stations that carriers use the most, a more thorough process will
be needed.

FAA has initiated the following two actions to improve the reporting of
outsourced maintenance, but these actions still fall short of providing FAA with
the data it needs:




Findings
                                                                                   4


 • On January 24, 2008, FAA issued a change to its Operations Specifications
   guidance that would require air carriers to list all certificated and non-
   certificated repair stations they use. FAA later cancelled this guidance and is
   now developing a new method to obtain this data because industry
   representatives expressed significant concerns with the undue burden of this
   reporting requirement.

 • By the end of calendar year 2008, FAA plans to issue revised guidance that
   will require air carriers to submit data on the amount or volume of repairs they
   outsource. FAA has determined that it can legally require them to submit this
   data through changes to air carriers’ Operations Specifications, rather than
   through the rulemaking process. FAA is also revising related inspector
   guidance to reflect this change.

We remain concerned because the revisions, as currently drafted, still do not
require air carriers to report complete volume data for all repairs of critical
components or FAA inspectors to validate the data. Without some form of data
verification, FAA cannot be assured that air carriers have provided accurate and
complete information.

FAA’s definition of substantial maintenance does not include all repairs of
critical components, resulting in inconsistent carrier reports of outsourced
maintenance. FAA inspection guidance defines substantial maintenance as major
airframe maintenance checks; significant engine work; major alterations or major
repairs to airframes, engines, or propellers; emergency equipment repairs; and
aircraft painting. Yet, this definition does not include components such as landing
gear even though the safe landing of an aircraft relies on properly maintained
landing gear—maintenance on such components is critical to the safe operation of
the aircraft.

As a result, FAA offices applied inconsistent policies on whether air carriers
should list landing gear repair facilities as substantial maintenance providers.
Inspectors for five of the nine air carriers we reviewed considered landing gear to
be substantial maintenance while the remaining four did not. FAA Flight
Standards staff advised us that decisions on whether landing gear is considered
substantial maintenance would depend on the type of work performed. We found
this can lead to wide disparities in air carriers’ reports of locations performing
repairs of critical components, which can limit inspectors’ ability to conduct
adequate risk assessments.

To illustrate, one air carrier that used a landing gear repair station we visited did
not consider it to be a substantial maintenance provider. Yet, that repair station
performed the same work for another air carrier that did consider it to be a
substantial maintenance provider. As a result, although the former air carrier was


Findings
                                                                                   5


the repair station’s biggest customer, with 59 landing gears sent for repair in 2005,
we found that, at the time of our review, neither the CMO inspectors nor air carrier
auditors had visited the facility in nearly 4 years.

Air carriers must correctly and consistently identify repair stations that conduct
substantial maintenance since FAA inspectors and air carrier auditors target these
facilities as higher oversight priorities. FAA should reassess its definition of
substantial maintenance, identify critical components that should be included in
the definition, and ensure that air carriers and FAA offices consistently apply this
definition.


FAA Does Not Have a Policy Governing When Inspectors Should Visit
Substantial Maintenance Providers
FAA requires air carriers to have a system in place, called the Continuing Analysis
and Surveillance (CAS) System, that continually detects and identifies deficiencies
found at repair stations and provides timely corrective action. Air carriers
primarily use periodic quality assurance audits to assess whether repair stations are
properly performing their inspection and maintenance programs. Since 1996,
FAA has required air carriers to conduct on-site audits before contract repair
facilities can be used to provide substantial maintenance.

FAA does not, however, require its CMO inspectors to conduct on-site
inspections—they can just review air carriers’ pre-contract award audits as a
basis for approving air carriers’ use of the repair stations. FAA allows
inspectors to decide when the initial inspections for substantial maintenance
providers should take place. In addition, FAA has not established a timeframe for
when inspectors should visit facilities after they are approved as outsourced
maintenance providers. On-site inspections conducted prior to approval for carrier
use would provide assurance that the facility does in fact have the proper
procedures, tooling, training, and equipment to conduct aircraft maintenance in
accordance with air carriers’ procedures. Without an established policy for
inspection schedules, there is no standard for all FAA offices regarding initial
inspector visits, which can cause safety issues to go unchecked at repair stations—
some for as long as 5 years—and limit CMO inspectors’ ability to effectively
assess risks (see table 2 on page 6).

For example, CMO inspectors did not inspect one foreign heavy airframe repair
station until 8 months after FAA granted initial approval—even though IFO
inspectors responsible for overseeing this facility had found 23 discrepancies
3 months after the initial approval (during their annual inspection). Some of these
discrepancies were significant and could have affected the quality of repairs for all
air carriers using the facility (e.g., there were not enough required tools, required


Findings
                                                                                       6


inspections of completed work were not accomplished, and the safekeeping of
parts in long-term storage could not be guaranteed). By the time CMO inspectors
visited the facility, it had already performed heavy maintenance checks on five of
the air carrier’s aircraft. Since CMO inspectors are responsible for ensuring that
repair stations meet carrier maintenance standards, the IFO inspection findings
should have prompted more immediate attention from the CMO. The CMO
inspectors had relied on the air carrier’s audit as a basis for initial approval and
identified outsourcing risks in their surveillance plan as “unknown” since they had
not been on site.

      Table 2. Repair Stations That Performed Substantial
   Maintenance for Long Periods Before First CMO Inspection
    Repair Station            Number of Aircraft and/or      Time Lapse Between
                                 Parts Repaired Before     Approval for Carrier Use
                                    First FAA Visit/a     and First FAA Inspection/b
              A               5 heavy airframe checks              8 months
              B               7 heavy airframe checks              5 months
              C               39 engines                            5 years
              D               30 landing gears a year           At least 5 years
              E/c             At least 81 landing gears         At least 5 years
                              At least 94 landing gears         At least 5 years
                              At least 21 landing gears         At least 5 years
   a/
      Repair station and/or air carrier records
   b/
      Source: FAA inspection database
   c/
      Three air carriers use this repair station.

It is important to note the following regarding repair stations C and E:

 • FAA solely relied on a foreign authority to oversee repair station C.
   Although FAA can conduct spot inspections at this repair station, the Agency’s
   IFO inspectors had not conducted any inspections of this facility for over
   5 years at the time of our review. Instead, FAA solely relied on inspectors
   from the foreign aviation authority to inspect this facility and provide FAA
   with a recommendation to renew the facility’s FAA maintenance certificate.
   After we conducted our review at this IFO, FAA inspectors initiated a joint
   inspection with the foreign aviation authority.

 • None of the CMO inspectors for three air carriers that used repair station
   E had inspected the facility. Despite the failure of landing gears that were
   repaired by repair station E, CMO inspectors for the carrier that experienced
   the failures did not inspect the repair station. An internal investigation
   performed by the repair station revealed it had performed an improper repair
   on 24 landing gears for this carrier over a 2-year period. Therefore, no one
   who had reviewed this facility during these 2 years—including FSDO


Findings
                                                                                   7


   inspectors, air carrier auditors, and repair station internal auditors—detected
   this repair error until the air carrier experienced landing gear problems.

We identified similar problems with the frequency of CMO inspectors’ on-site
inspections at repair stations performing work for cargo carriers. For example,
FAA inspectors for 2 cargo air carriers had not visited a major foreign engine
overhaul facility in at least 5 years even though the facility repaired 50 engines in
1 year for those carriers.

Inspector Staffing and Budget Issues Could Be Affecting FAA’s Ability To
Provide Sufficient Inspection Coverage for Substantial Maintenance
Providers
Inspectors at five of the nine air carriers we reviewed told us that staffing and
budget issues affected their ability to provide sufficient inspection coverage for
substantial maintenance providers. Inspectors for one of these five were only able
to inspect 16 percent of the air carrier’s substantial maintenance providers in 2007.

For example, inspectors stated that they did not have enough on-site time at repair
stations and that this time was split between aging aircraft inspections and
outsourced inspections. Since aging aircraft inspections—those inspections
requiring a visual check of the condition of an aircraft’s structure—are mandated
by Congress, money is made available to FAA to perform these essential
inspections. FAA principal inspectors have instructed their inspectors to combine
contract maintenance inspections with their aging aircraft inspections. Although
this procedure seems prudent, inspectors told us that they do not have adequate
time during a typical 2- to 3-day inspection visit to properly assess both programs.

In addition, FSDO principal maintenance inspectors for two heavy airframe repair
stations told us that staffing and budget constraints limited their oversight
capabilities. FAA is addressing these issues by developing a staffing model to
better determine its staffing needs given the increasing shift to outsourced
maintenance.

FAA Relies Heavily on Air Carrier and Repair Station Audits, Which
Are Not Always Sufficient To Correct Identified Deficiencies
In addition to their own inspections, FAA inspectors must ensure that air carriers
and repair stations have strong audit systems to correct identified deficiencies, as
FAA relies heavily on their oversight. While all the carriers we visited had formal
audit programs, we found that these audits were not always thorough and that
FAA should have required its inspectors to perform on-site inspections in some
instances. Specifically, at 5 of the 15 repair stations we visited we found that air
carrier auditors did not identify all deficiencies and adequately follow up on


Findings
                                                                                   8


findings. FAA and air carriers also rely on repair stations to perform audits of
external vendors they contract with for parts and maintenance. We determined
that repair station processes for conducting these audits, correcting identified
deficiencies, and performing trend analyses could have been stronger at
10 of the 15 repair stations we visited. Without reliable oversight of audit findings
and corrective actions, maintenance problems at repair stations can remain
undetected or reoccur.


FAA Needs To Ensure Inspectors Visit Heavy Airframe Repair Stations
Instead of Allowing Them To Solely Rely on Air Carrier Audits
Our review of FAA inspections of nine air carriers’ CAS programs showed that
FAA identified problems with three of the nine carriers’ quality assurance audit
programs—the very audit programs that FAA inspectors can opt to rely on when
they decide to approve substantial maintenance providers for use. We question
this oversight practice given the following problems FAA identified:

 • Faulty CAS procedures that could not properly identify weaknesses in vendors’
   heavy maintenance processes.
 • Inaccurate reporting of findings in audit reports.
 • A lack of regularly scheduled and effective CAS meetings. These meetings are
   important because air carrier representatives discuss data analyses and identify
   high-risk areas that will be closely tracked.

In addition, FAA cited one of these three air carriers for having inadequate CAS
program management. This included the following:

 • An undersized quality assurance audit staff.
 • No person designated with the responsibility for overall program management.
 • Sixty corrective action responses from a major repair vendor that exceeded the
   required 10-day response time window.

These problems, however, did not stop FAA inspectors from relying on the air
carrier’s audits to approve substantial maintenance providers for use by that
carrier—without first conducting on-site, pre-award inspections of those facilities.

For example, CMO inspectors for one air carrier relied on the air carrier’s pre-
contract award audit report to approve the repair station for use. However, when
CMO inspectors performed an on-site inspection 3 months later—when the first
aircraft was in for repair—they identified significant findings related to
mechanics’ training. FAA inspectors required the air carrier to make changes to



Findings
                                                                                                      9


its training program for contract vendor employees and took enforcement action to
address the following deficiencies:

    • Over 100 repair station employees did not receive specialized maintenance
      training by the required due date; yet, inspectors found that these employees
      were working on the air carrier’s aircraft.

    • Several repair station employees had not received a required 8-hour air carrier
      training class; instead, air carrier personnel provided a shortened 4.5-hour
      training class, contrary to company manual requirements.

In this instance, solely relying on the air carrier’s audit to approve the facility for
use was insufficient. FAA either needs to conduct an on-site inspection before
approving facilities for use or verify that the air carrier’s audit process is sufficient
to ensure that repair stations’ mechanics are properly trained and fully understand
air carrier requirements before they begin working on air carriers’ aircraft.

Currently, however, FAA relies on air carriers to ensure personnel at repair
stations are fully trained. FAA guidance to the industry 7 only states that air
carriers should verify that personnel, including contract maintenance provider
staff, are trained and qualified to accomplish their duties. At another air carrier we
reviewed, an aircraft released into service after undergoing a heavy maintenance
check at a repair station had to turn back following take-off because the nose
landing gear would not retract.

In investigating the cause, air carrier officials determined that the repair station
mechanics had been trained but did not fully understand the air carrier’s
requirements for landing gear repairs. The air carrier had to conduct an informal
training session for repair station mechanics using photographs to more clearly
show how each part is assembled. In this case, if the air carrier had conducted a
more thorough audit of the repair station it would have found that the personnel
were improperly trained and the incident may have been avoided.


FAA Must Ensure Air Carrier Audits Verify Repair Stations’ Corrective
Actions Before Closing Audit Findings
When air carrier auditors identify a deficiency, the air carrier must determine if a
corrective action is warranted and, if so, require the repair station to provide a
written response detailing the cause of the problem, the corrective action that
should be taken, the action for preventing recurrence, and an estimated completion
date. We found, however, that air carriers typically close the findings based on
projected corrective actions from the repair facility management without ensuring
7
    Advisory Circular 120-79, Developing and Implementing a Continuing Analysis and Surveillance System,
    April 21, 2003.


Findings
                                                                                  10


that the corrective action actually resolves the problem. As a result, identified
deficiencies reoccur. For example:

 • At a heavy airframe maintenance provider, we identified work cards that air
   carrier mechanics and inspectors had not properly signed, including cards for
   significant maintenance tasks. Without proper sign-offs, there is no assurance
   that the work was actually performed. Air carrier auditors had reported a
   similar finding at this repair station 6 months before our on-site audit, but they
   had closed it without ensuring that the repair station resolved the problem.

 • At a foreign repair station, we observed that temperature and humidity in the
   engine bearing inspection shop were consistently above the maximum allowed
   by the manufacturer. This is critical to safety as engine bearings are precision
   components that support heavy loads at high speed. Air carrier officials had
   identified similar concerns 2 years earlier while conducting an audit initiated
   after an engine shutdown caused by the premature wear of an engine bearing.
   However, air carrier auditors did not return to the facility until almost 2 years
   later.

   We found that the problem was actually occurring as early as September 2002
   (see figure 3 timeline on page 11). Yet, air carrier auditors and FAA inspectors
   did not ensure that the repair station actually corrected this deficiency. Even
   after we informed the IFO inspector of our finding, he did not verify that the
   problem had been corrected. The IFO inspector did not physically inspect the
   bearing room during his visit in March 2006; instead, he took the repair station
   staff’s word that the bearing room was in compliance.

   During an August 2006 follow-up inspection, the IFO inspector found the same
   problem and determined that shop personnel needed to improve compliance
   with temperature and humidity requirements during bearing inspection.
   According to the inspector, the repair station began recording the temperature
   on the router document associated with the bearing undergoing maintenance
   and inspection. Yet, we found no evidence in FAA’s inspection records to
   show that FAA has verified whether this action resolved the problem.




Findings
                                                                                                                                      11


   Figure 3. Chronology of FAA Inspections at a Repair Station
                   After joint CMO/air
                   carrier audit, CMO                                                                               IFO inspector finds
                   recommends improved                                          Joint CMO/air
                                             IFO inspector                      carrier audit finds                 repair station
                   temperature and           visits but does                                                        cannot prove
IFO visits in Sep. humidity controls in                                         same problem in IFO inspector
and finds                                    not follow up on   OIG visit finds bearing room, but visits but does   compliance with
                   bearing room to prevent   CMO’s request                                                          temperature and
temperature and another engine failure.                         bearing room CMO does not           not inspect
humidity                                     regarding          temperature     record in database. bearing room.   humidity
                   Asks IFO inspector to     bearing room.                                                          requirements.
uncontrolled in                                                 uncontrolled.
                   follow up.
bearing room.                                                                           14th – 20th
                                Sep/Oct               Jun          Jan         Mar                        Aug

        2002         2004                    2005                 2006

Source: FAA Inspection Records, Air Carrier Audit Records, and OIG On-Site Visit Records




Effectiveness of Air Carriers’ On-Site Personnel Unknown Due to
Inconsistencies in the Level of Oversight
Because FAA cannot continually be on site to inspect repair stations, the Agency
also relies on another layer of air carrier oversight at heavy airframe maintenance
providers: on-site air carrier representatives. However, FAA does not have any
guidance for how these personnel should examine repairs and document
observations. As a result, this oversight is inconsistent, and the lack of air carrier
data from these personnel makes it difficult to determine whether this process is
effective. For example,

 • On-site personnel for two of the nine air carriers we reviewed performed only
   undocumented, on-the-spot inspections of repairs. As a result, these carriers
   did not have methods for ensuring corrective actions or requiring data for trend
   analysis. When we asked to review one of these carrier’s procedures, we were
   told that the procedures did not exist and that there were plans to add a section
   to the procedures manual that would deal strictly with outsourcing, but that had
   not yet occurred. In addition, on-site personnel at this repair station told us
   they only spent 35 percent of the time on the hangar floor. Yet, on-site
   personnel for another air carrier, which has a formal on-site monitoring
   process, at the same facility told us they spent about 70 percent of the time on
   the hangar floor. Both air carriers that used this repair station operate similar
   aircraft and had approximately the same number of aircraft serviced by the
   repair station.

 • The number of on-site air carrier personnel ranged from 3 personnel for
   1 carrier to 22 personnel for another carrier at a different repair station. We
   recognize that there are many variables in determining how many on-site
   personnel air carriers will place at repair stations; however, without any
   guidance, FAA inspectors face difficulties in applying consistent oversight of
   this process.



Findings
                                                                                  12


To improve the air carrier on-site representative process, FAA should develop
guidance that instructs on-site personnel to record their observations of substantial
maintenance so that the data are available to FAA inspectors and air carrier
auditors.


Repair Stations Need To Improve Quality Assurance Processes
Repair stations’ audit programs must ensure that facilities they use adequately
correct deficiencies disclosed by their internal and external (vendor and supplier)
audits. Subcontractors to repair stations are frequently responsible for repairing
critical parts. We found, however, that repair stations need to improve their
quality assurance processes.

For example, a parts receiving inspector at a domestic repair station—not a trained
quality assurance auditor—performed desk audits of repair station vendors.
Allowing a person not trained as an auditor to conduct audits raises concerns as to
the type of in-depth review performed of all current vendors’ documentation and
the handling of any findings. In 2004, an air carrier also found problems at this
repair station regarding limited involvement from the quality assurance
department. Specifically, the carrier was concerned that the quality assurance
department was not involved in the corrective action process, which resulted in
recurring deficiencies.

We found the following instance where all three types of oversight systems—
FAA, air carrier, and repair station—failed to detect weaknesses at a heavy
maintenance provider:

Two air carrier audits and two FAA inspections (CMO and FSDO) failed to detect
significant weaknesses in a heavy airframe repair station’s internal audit program.
These were not discovered until another major air carrier’s pre-contract award
audit found significant problems in maintenance practices. This brings the quality
of air carrier and FAA oversight into question, along with the repair station’s
internal program. The problems identified were so serious that repair station
management stopped operations for over a month so it could take corrective
actions. Specifically, the repair station did not properly oversee the following:




Findings
                                                                                      13


 • Composite shop practices: Numerous problems found, such as mechanics
   using improperly calibrated equipment, which indicated a complete lack of
   control over this critical maintenance process.
 • Subcontractor maintenance: Numerous problems found, such as the use of
   an unqualified subcontracted employee to perform inspections, use of
   unapproved vendors, and assignment of an acceptable rating and approval for a
   vendor despite the vendor’s self-assessment survey being 80 percent
   incomplete.
 • Non-destructive testing processes: Problems found included unqualified
   inspectors performing inspections and required tests not being performed.
 • Internal audit program:          Repair station personnel did not identify
   deficiencies during internal audits because their audit checklists were not
   detailed enough to detect these problems. In addition, we found that the person
   conducting the audits and the head of the quality assurance department did not
   have formal audit training or auditor certifications.

The air carrier that detected these deficiencies ultimately chose not to contract
with this heavy airframe repair station. Therefore, the responsibility for ensuring
that the repair station properly addressed these deficiencies, regardless of the
carrier’s decision, should have fallen to the FSDO inspectors responsible for
overseeing this repair station. However, our review of FAA’s inspection database
disclosed that even though repair station officials notified FSDO inspectors of the
air carrier’s audit findings, FSDO inspectors did not record the audit findings or
indicate any follow-up inspections. As a result, other CMO inspectors, whose
assigned air carriers also use this repair station, would not have known about these
problems, some of which could affect the airworthiness of the aircraft they
oversee.

It is critical that inspectors closely review air carrier audit findings; validate, while
on site, that repair stations corrected deficiencies; and fully document their
results—especially since FAA has no requirement for when carriers must conduct
a follow-up audit (a second audit may not occur until 1 to 2 years later).
Documenting these reviews is important because many air carrier findings identify
deficiencies within repair stations (including within facilities’ internal audit
programs) that should be brought to FSDO inspectors’ attention.




Findings
                                                                                 14



FAA Needs To Improve Its Inspection Data Documentation
In 2003, we reported that FAA’s FSDO and CMO inspectors were not sharing
inspection information. In response, FAA implemented procedures to improve
information sharing by requiring inspectors to include repair station names on
inspection reports and document areas inspected, the results, and corrective actions
taken in the national inspection database. While FAA has improved in this area,
we found this problem persists among FAA offices. In addition, FAA still has not
corrected problems with recording the identity of inspected repair stations, which
we also reported in 2003.

Our interviews with inspectors and evaluation of inspection records disclosed poor
communication among 12 of the 19 FAA offices we either contacted or visited.
We identified the following types of communication problems:

 • Poor interaction between FSDO/IFO and CMO inspectors.
 • Undocumented inspection findings.
 • Limited communication between FAA and foreign authorities.
 • Untimely communication of significant inspection findings.

As a result, inspectors had incomplete data to prepare risk assessments, and there
was no assurance that identified deficiencies were adequately corrected. For
example:

 • Deficiencies at a heavy maintenance repair station went uncorrected due to a
   breakdown in communication between FSDO and CMO inspectors and a
   FSDO’s failure to review the inspection database. Specifically, a CMO
   inspector had identified poor conditions in the composite shop at this repair
   station that could cause contamination and affect the integrity of final repairs.
   The CMO inspector recorded his inspection results in the inspection database
   and stated in his report that he had left a voicemail to FSDO inspectors
   responsible for overseeing this facility to advise them of his findings.

   When we showed FSDO inspectors a copy of the inspection record, they told
   us they never knew about these problems even though the problems were
   recorded in the database nearly 4 months earlier. In addition, they told us that
   they did not know the other inspector had tried to contact them. As a result,
   the problems in the composite shop still existed 2 months after the CMO
   inspector first found the problems.

 • CMO inspectors for a major air carrier were unaware of a FSDO inspector’s
   findings regarding a heavy airframe repair station that the carrier used. The
   FSDO inspector found that the repair station had started work on the air

Findings
                                                                                   15


  carrier’s aircraft before ensuring it had all tools, equipment, and manpower
  required to perform maintenance (i.e., only 30 maintenance personnel were
  available for work performed during shifts that would normally require
  approximately 110). When we questioned the CMO inspectors about this
  finding, they said they were unaware of the finding even though it was
  recorded in FAA’s inspection database.

 • In assessing risks at a domestic repair station, CMO inspectors may have been
   unaware of deficiencies because the FSDO inspector did not document any
   findings in the inspection database. Rather he simply told the repair station to
   fix the discrepancies and then visually checked for corrective actions during
   the next visit. For instance, the repair station made an error that affected 24 air
   carrier nose landing gears repaired over a 2-year period. The error was
   reported to FAA but not entered in the database. This prevented other FAA
   inspectors from accessing key safety data about this repair station. As a result,
   the repair station could receive fewer inspections. This repair station had
   received no on-site monitoring by CMO inspectors for air carriers using this
   facility for at least 5 years.

 • At a foreign repair station, IFO inspectors did not consistently enter inspection
   findings in FAA’s database. As a result, CMO inspectors were not able to
   view these findings and properly assess risk at this foreign repair station where
   their assigned air carrier has contracted maintenance.

  Our review showed that between 2003 and 2005, the foreign aviation authority
  conducted three inspections of this foreign engine repair station on FAA’s
  behalf through international aviation agreements with the United States. The
  inspectors identified 23 findings and reported them to the IFO. FAA recorded
  8 of these 23 findings in the database, but the remaining 15 were only recorded
  on paper copies, which were maintained in the IFO’s files. Although we found
  that most of the 15 findings were administrative in nature, 3 were not. For
  example, inspectors found the following:

    - Weaknesses in the repair station’s knowledge of Part 145 European
      Aviation Safety Agency regulations that govern repair station operations.
    - No evidence to show that internal audit findings conducted by engine repair
      station quality auditors had been completed or closed (a similar finding we
      identified again during our January 2006 visit).
    - No proof of required training.




Findings
                                                                                    16


   In July 2006, IFO inspectors conducted their own inspection of this engine
   repair station, but they did not record closure actions in the database until we
   asked about the status of the inspection nearly 1 year later. We were told that
   “due to workload and time constraints, the corrective actions were not placed
   into [the database].”


FAA Needs Procedures To Ensure That Inspectors Properly Identify
Inspected Repair Stations
We found that FAA still has not corrected problems with recording the identity of
inspected repair stations, as we recommended in July 2003. In response, FAA
issued guidance in April 2005 requiring CMO inspectors to document repair
station designators on their inspection reports. However, we determined that
33 percent of the 897 repair station inspection records entered into the database
after April 2005 and through June 2007 for the air carriers we reviewed did not
contain the required designator information. Moreover, in June 2007, FAA
reminded all CMO inspectors to include these designators in their reports. FAA
indicated that failure to do so would hinder analysis capabilities and compromise
repair station risk models that rely on accurately prepared inspection reports for
risk assessment.

Even at this urging, however, inspectors still did not include repair station
designators. As shown in figure 4, there was virtually no change in inspectors’
recordings of repair station designators from May 2005—after FAA issued initial
guidance—to November 2007—well after FAA issued a reminder to inspectors.
For the air carriers we reviewed, the percentage of records without designators
remained approximately one-third of the total records in the database.

    Figure 4. Number of Inspection Reports Without Required
                Repair Station Designator Code
 Figure 4a. Reports Without Designator Figure 4b. Reports Without Designator
    Codes After April 2005 Guidance       Codes After June 2007 Reminder
           (May 2005–June 2007)                       (July–November 2007)



    293
                                                 25
          33%
                                  w/ code             33%                w/ code
                                  w/o code                               w/o code
                67%
                       604                                  67%
                                                                  50




Source: FAA inspection records



Findings
                                                                                                               17


Of the 25 records shown in figure 4b, 1 office was responsible for 16 of these
records (64 percent) that were entered into the inspection database without a repair
station designator, a clear violation of inspection guidance and a potential
detriment to FAA’s ability to properly assess repair station risk. A principal CMO
inspector in this office told us that inspectors are not required to enter the repair
station designator unless they are performing surveillance on the repair station, not
when they are performing oversight of the air carrier’s procedures at the repair
station. This is contrary to FAA’s direction to include repair station certificate
numbers on inspection reports.

Properly recording inspection results is now more important than ever since
FAA’s risk-based system is predicated on using comprehensive inspection data to
target inspectors to risk areas. To guarantee the viability of this system, FAA will
need to ensure that FSDO inspectors conduct an appropriate number of inspections
and record their results in the inspection database. This will allow CMO
inspectors to better assess risk at their assigned carriers’ repair stations and adjust
their surveillance as needed. FAA must also develop adequate procedures to
ensure inspectors document their findings and review the inspection database for
previous findings.

Current inspector guidance recommends that inspectors review all available
inspection records to note any discrepancies found by other inspectors before they
inspect a repair station. However, we found that inspectors did not always
perform this review and if they did, they did not normally record it in FAA’s
inspection database; therefore, we could not verify whether inspectors actually
completed this action or followed up on prior findings.

FAA Should Ensure That Air Carriers Have Well-Defined Processes
and Responsibilities for Outsourced Maintenance
Current FAA regulations do not provide specific guidance to air carriers regarding
outsourced maintenance procedures. The regulations only require each air carrier
to have (1) a program covering maintenance of its aircraft that it or other persons
(i.e., contract facilities) perform and (2) a system that monitors and analyzes the
performance and effectiveness of inspection and maintenance programs. 8

Although the regulations state that repair stations are to follow air carriers’
procedures, air carrier manuals have been traditionally geared toward in-house
maintenance. Since repair stations may perform repairs for various air carriers, all
with different in-house procedures, FAA should ensure that air carriers provide

8
    14 C.F.R. § Part 121.369 currently requires each air carrier to have a program covering maintenance, preventive
    maintenance, and alterations performed by it or by other persons. This regulation also requires maintenance,
    preventive maintenance, and alterations to be performed in accordance with the air carrier’s manual.


Findings
                                                                                  18


repair stations with well-defined maintenance procedures and properly document
their oversight processes.

We found key oversight and maintenance processes that FAA should require air
carriers to document in their manuals, such as vendor reliability programs and
subcontracting and parts receiving processes.


FAA Should Encourage Air Carriers To Better Document Programs To
Track Reliability of Outsourced Maintenance Vendors
Although not required by FAA, most of the air carriers we reviewed had
established reliability programs to monitor the effectiveness of aircraft
maintenance performed by outsourced maintenance vendors. However, we found
inconsistencies in how air carriers accomplished this monitoring, and some air
carriers had not fully documented the process in their FAA-approved manual.

For example, a major air carrier had a system to track maintenance difficulty items
and aircraft out-of-service rates against every substantial maintenance provider;
yet, the carrier did not document the system within its policies and procedures, and
the vendor scoring system did not contain well-defined criteria. A lack of defined
procedures for scoring vendor performance may not give an accurate view of
airframe heavy maintenance vendor performance.


FAA Should Ensure That Air Carriers Clearly Document Processes for
Approving Vendors and Receiving Parts
We determined that air carriers had varying degrees of controls for ensuring that
new parts and parts sent out for repair were from approved vendors and met
specifications when received. Air carriers often require repair stations to use air
carrier-approved vendors for supplying new or repaired parts. In addition, repair
stations have their own approved vendor lists they use if air carriers do not specify
which vendors to use. This results in multiple approved vendor lists and multiple
procedures that repair stations must follow to ensure they are using only air carrier
approved vendors. Another potentially vulnerable area we identified is when air
carriers have parts sent directly from a vendor without going through its receiving
process. FAA must ensure air carriers document clearly how these parts should be
processed.

FAA recognizes the discrepancies within air carriers’ programs for in-house and
outsourced maintenance. FAA is developing a rule to require specific language in
air carriers’ manuals for outsourced maintenance. The Agency originally expected
to issue its proposed rulemaking in June 2008, but it has been delayed by higher
priority rulemakings. In our view, FAA must initiate interim actions, such as


Findings
                                                                               19


encouraging “Airworthiness Agreements” between air carriers and repair stations
that clearly define outsourced maintenance responsibilities (e.g., how mechanics’
training will be accomplished).


RECOMMENDATIONS
We recommend that FAA:

 1. Improve its maintenance data reporting system by: (a) revising its guidance
    to include all maintenance providers performing repairs of critical
    components, not just the top 10 substantial maintenance providers and
    (b) developing procedures for inspectors to validate the accuracy and
    consistency of reports.

 2. Require CMO inspectors to conduct (a) initial baseline inspections of
    substantial maintenance providers to assess whether the maintenance
    providers are in compliance with air carriers’ procedures and (b) follow-up
    inspections to determine whether this baseline assessment has changed.

 3. Reassess its definition of substantial maintenance to include critical
    components and ensure that air carriers and FAA offices consistently apply
    the definition.

 4. Require inspectors to: (a) follow up to verify that deficiencies identified by
    air carriers have been corrected at repair stations and (b) ensure that repair
    stations have adequate processes for conducting audits, correcting identified
    deficiencies, and performing trend analyses of findings.

 5. Develop controls to ensure inspectors are complying with inspector guidance
    to document their findings in FAA’s inspection database and review the
    inspection database for previous findings.

 6. Ensure air carriers document inspections conducted by air carriers’ on-site
    technical representatives at heavy airframe maintenance providers.

 7. Encourage the industry best practice of using airworthiness agreements
    between air carriers and repair stations that more clearly define maintenance
    procedures and responsibilities.




Recommendations
                                                                                 20


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FAA with our draft report on August 22, 2008, and received FAA’s
comments on September 26, 2008.             FAA concurred with all seven
recommendations and provided appropriate milestones for implementing
corrective actions. We consider recommendations 1, 2, 3, 6, and 7 resolved and
open pending completion of the planned actions.

However, for recommendations 4 and 5, we are requesting that FAA provide
additional information since FAA’s response and planned actions do not fully
address our intent, as discussed below.

Recommendation 4:            While FAA’s planned actions adequately address
recommendation 4a, its response to 4b requires further clarification. Specifically,
FAA’s planned actions, if properly implemented, will verify that air carriers have
adequate audit processes to oversee maintenance performed at repair stations.
However, it is not clear whether the Agency intends for FAA inspectors and air
carriers to also verify that repair stations have adequate audit processes for their
vendors. Therefore, we request that FAA clarify its planned actions with regard to
recommendation 4b to address oversight of repair stations’ audit processes.

Recommendation 5: FAA plans to revise ATOS software to make repair station
designators a required field—an action that complies with recommendations from
this report and our prior reports. However, we are concerned that FAA’s planned
action to provide guidance to ATOS data reviewers to include documentation of
repair station findings in their reviews will not address all the situations that we
identified during our audit.

For example, we found inspection documentation problems at FSDOs and IFOs
that do not have ATOS data reviewers. Therefore, revisions made to ATOS
processes would not improve these situations. In addition, FAA did not address
the portion of the recommendation related to establishing controls to ensure
inspectors review the inspection database for previous findings. We therefore
request that FAA provide additional information to fully address recommendation
5.




Agency Comments and Office of Inspector General Response
                                                                                  21


ACTIONS REQUIRED
FAA’s planned actions satisfy the intent of our recommendations for
recommendations 1, 2, 3, 6, and 7, and no further information is required. In
accordance with Department of Transportation 8000.1C, we request that FAA
provide us with additional information on actions it intends to take to fully address
recommendations 4b and 5 along with estimated target completion dates. We
would appreciate receiving your response within 30 calendar days.




Agency Comments and Office of Inspector General Response
                                                                                  22




EXHIBIT A. SCOPE, METHODOLOGY, AND PRIOR WORK

We conducted this performance audit between May 2005 and June 2008 in
accordance with generally accepted Government Auditing Standards prescribed by
the Comptroller General of the United States. We included such tests as necessary
to provide reasonable assurance of detecting abuse or illegal acts. In March 2007,
we testified on our preliminary analysis results before the House Transportation
and Infrastructure Committee.

We performed work at FAA Headquarters, 16 FAA field offices, 9 major air
carriers, and 15 repair stations. We also contacted three other FAA offices to
obtain data. The nine major air carriers that we reviewed represented a cross-
section of nine of the largest network and low-cost air carriers that had either
always outsourced their maintenance or had recently begun shifting to
outsourcing. In addition, we met with officials at one additional air carrier,
American Airlines, and its associated FAA certificate management office to
determine the carrier’s reason for keeping the majority of its maintenance in-
house.

To determine which repair stations to visit, we obtained and reviewed the lists of
approved substantial maintenance providers for the nine air carriers selected for
review to ascertain which repair stations they use. Our goal was to ensure that we
established a balanced number of both foreign and domestic repair stations
coupled with those stations that are used the most by U.S. air carriers. The
15 repair stations visited all conducted substantial maintenance for air carriers. Of
the 15, 11 performed heavy airframe maintenance, 2 performed engine overhauls,
and 2 performed overhauls of landing gear. Exhibit B lists the entities we visited
or contacted during our audit.

To determine the type and quantity of maintenance that air carriers are
outsourcing, we requested data from the nine air carriers visited. Our initial work
disclosed that obtaining quantities for all types of maintenance would be
extremely labor-intensive because air carriers did not have the data readily
available, did not report the data consistently, and in some instances would not
provide it because of the data’s proprietary nature. Therefore, as agreed to with
congressional staff, we focused our review and analysis of repair volume on heavy
airframe maintenance checks because of the critical nature of this work and the
fact that these data are more readily available at air carriers.

To assist us in assessing the effectiveness of FAA and air carrier oversight, we
contracted with Simat, Helliessen and Eichner, Inc. (SH&E), an international air
transport consulting firm. SH&E focused on determining whether repair station


Exhibit A. Scope, Methodology, and Prior Work
                                                                             23


internal quality assurance programs, air carrier quality oversight, and FAA
surveillance plans were in place and functioning satisfactorily. SH&E also
conducted random testing of repair station procedures to identify any weaknesses
in FAA’s oversight.


Prior OIG Work on Outsourced Maintenance

 • Statement Before the House Transportation and Infrastructure Committee,
   “Aviation Safety: FAA’s Oversight of Outsourced Maintenance Facilities,”
   March 29, 2007 (CC-2007-035).

 • Statement Before the Senate Subcommittee on Aviation Operations, Safety,
   and Security, “Aviation Safety: FAA Oversight of Foreign Repair Stations,”
   June 20, 2007 (CC-2007-076).

 • Review of Air Carriers’ Use of Non-Certificated Repair Facilities,
   December 15, 2005 (AV-2006-031).

 • Congressional Correspondence to Representative Oberstar Regarding FAA
   Actions on Air Carriers’ Use of Aircraft Repair Stations, June 27, 2005
   (CC-2005-035).

 • Review of Air Carriers’ Use of Aircraft Repair Stations, July 8, 2003
   (AV-2003-047).




Exhibit A. Scope, Methodology, and Prior Work
                                                                                                             24




EXHIBIT B. ENTITIES VISITED OR CONTACTED

FEDERAL AVIATION ADMINISTRATION

Headquarters:
         Aviation Safety (AVS)                                                 Washington, DC

         Flight Standards Service                                              Washington, DC

Certificate Management Offices (CMO) for:
         AirTran Airways                                                       Orlando, FL

         Alaska Airlines                                                       Seattle, WA

         **American Airlines                                                   Fort Worth, TX

         America West Airlines                                                 Phoenix, AZ

         Continental Airlines                                                  Houston, TX

         Delta Air Lines                                                       College Park, GA

         JetBlue Airways                                                       Garden City, NY

         Northwest Airlines                                                    Bloomington, MN

         Southwest Airlines                                                    Dallas, TX

         United Airlines                                                       Daly City, CA

          ∗US Airways                                                          Coraopolis, PA

Flight Standards District Offices (FSDO):
         Albany FSDO                                                           Latham, NY

         Miami FSDO                                                            Miami, FL

         Orlando FSDO                                                          Orlando, FL

         Seattle FSDO                                                          Renton, WA


∗ Contacted only to obtain clarifying data.
** Conducted on-site visit only to determine reasons for keeping the majority of its maintenance in-house.


Exhibit B. Entities Visited or Contacted
                                                                  25


      *Indianapolis FSDO                   Indianapolis, IN

      *Van Nuys FSDO                       Van Nuys, CA

International Field Offices (IFO):
      Miami IFO                            Miami, FL

      Frankfurt IFO                        Frankfurt, Germany

      Singapore IFO                        Singapore

AIR CARRIERS

      AirTran Airways                      Orlando, FL

      Alaska Airlines                      Seattle, WA

      **American Airlines                  Tulsa, OK

      America West Airlines                Phoenix, AZ

      Continental Airlines                 Houston, TX

      Delta Air Lines                      Atlanta, GA

      JetBlue Airways                      Forest Hills, NY

      Northwest Airlines                   Minneapolis, MN

      Southwest Airlines                   Dallas, TX

      United Airlines                      San Francisco, CA

REPAIR STATIONS

      AAR Landing Gear Services            Medley, FL

      Aeroman                              San Salvador, El Salvador

      Air Canada Technical Services        Vancouver,Canada

      AMECO Beijing                        Beijing, China

      Avborne Heavy Maintenance Inc.       Miami, FL

      Empire Aero Center                   Rome, NY



Exhibit B. Entities Visited or Contacted
                                                                        26


     GE-Celma                                    Petropolis, Brazil

     Goodrich Aviation Technical Services        Everett, WA

     HAECO                                       Lantau, Hong Kong

     Hawker-Pacific Aerospace                    Sun Valley, CA

     MTU Maintenance Hannover GMBH               Langenhagen, Germany

     PEMCO World Air Services                    Dothan, AL

     SASCO                                       Singapore

     TAECO                                       Xiamen, China

     TIMCO                                       Lake City, FL

INDUSTRY & FAA INSPECTOR WORKFORCE REPRESENTATIVES

     Aircraft Mechanics Fraternal Association    Washington, DC

     Air Carrier Association of America          Washington, DC

     Air Transport Association                   Washington, DC

     International Brotherhood of Teamsters      Phoenix, AZ

     Professional Airways Systems Specialists    Washington, DC

     Regional Airline Association                Washington, DC

     Transportation Trades Department, AFL-CIO   Washington, DC




Exhibit B. Entities Visited or Contacted
                                                                       27


EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT


  Name                      Title


  Lou E. Dixon               Assistant Inspector General
                             for Aviation and Special Program Audits

  Robin Koch                 Program Director

  Kevin George               Project Manager

  James Madden               Senior Auditor

  Stefanie McCans            Analyst

  Manuel Ramos               Auditor

  Travis Wiley               Analyst

  Aiesha Gillespie           Analyst

  Andrea Nossaman            Writer-Editor




Exhibit C. Major Contributors to This Report
                                                                                                      28


APPENDIX. AGENCY COMMENTS

                        Federal Aviation
                        Administration



Memorandum
Date:           September 26, 2008

To:             Lou E. Dixon, Assistant Inspector General for Aviation and Special Program Audits

From:           Ramesh K. Punwani, Assistant Administrator for Financial Services/CFO

Prepared by:    Anthony Williams, x79000

Subject:        OIG Draft Report: Air Carriers’ Outsourcing of Aircraft Maintenance


Thank you for the opportunity to review your draft of the subject report. We concur with all
recommendations contained in the report. The Federal Aviation Administration’s (FAA) planned
action for addressing each recommendation is stated below. These actions include a requirement for
air carriers and repair stations to submit quarterly utilization reports of maintenance providers. FAA is
also developing a rule to specifically address maintenance completed by external repair stations.
FAA continues to take important steps to move its safety oversight towards a risk-based system.

OIG Recommendation 1: Improve its maintenance data reporting system by: (a) revising its guidance
to include all maintenance providers performing repairs of critical components, not just the top 10
substantial maintenance providers and (b) developing procedures for inspectors to validate the
accuracy and consistency of reports.

FAA Response: Concur. The FAA is revising the guidance and including more than just the top 10
maintenance providers. Principal airworthiness inspectors will be required to validate the accuracy of
reports through periodic audits. We will complete our action on this recommendation by March 31,
2009, subsequent to completing our action on recommendation 3, below.

OIG Recommendation 2: Require CMO inspectors to conduct (a) initial baseline inspections of
substantial maintenance providers to assess whether the maintenance providers are in compliance with
air carriers’ procedures and (b) follow-up inspections to determine whether this baseline assessment
has changed.

FAA Response: Concur. The FAA does have current guidance which supports this recommendation
in FAA Order 8900.1, Flight Standards Information Management Systems (FSIMS),” volume 6,
“Surveillance,” chapter 2, section 41, “Evaluate/Inspect Part 121/129 (N-registered only)/135 (10 or
more) and 125 Operator’s Outsource Maintenance Organization Facility. Section 41, paragraph 61123,
states; “The FAA air carrier inspector will evaluate (emphasis added) the outsource maintenance



Appendix. Agency Comments
                                                                                                  29


provider, facility (certificated or non-certificated and other air carrier) to ensure that it has adequate
housing, equipment, spare parts, technical data, and qualified personnel available to satisfactorily
complete all contracted maintenance in accordance with (IAW) parts 91K, 121, 125, 129 (N-registered
only) and 135 (10 or more), and the air carrier or commercial operators program and applicable
sections of the maintenance manual.” We agree that initial and follow-up on-site inspections of
essential maintenance providers (see FAA response to recommendation 3, below) should be
accomplished to the greatest extent practicable and will implement this recommendation after
assessing its impact on resources based on the definition of “essential maintenance.” We will need to
complete our definition as outlined in recommendation 3 to determine what the impact will be to
require initial audits of all air carriers with operations specifications paragraph D091. Action to be
completed by June 30, 2009, after determining its impact on resources.

OIG Recommendation 3: Reassess its definition of substantial maintenance to include critical
components and ensure that air carriers and FAA offices consistently apply the definition.

FAA Response: Concur. The FAA has a project in-progress to define a single definition for the term
“substantial maintenance,” “critical,” and “critical parts.” Our current review of Title 14 Code of
Federal Regulations (14 CFR) has revealed another maintenance activity performance requirement.
That activity is the Required Inspection Item (RII). The rules governing RII address maintenance, not
parts, including at least those items of maintenance that could result in a failure, malfunction, or defect
endangering the safe operation of the airplane, if not performed properly or if improper parts or
materials are used.

We will address these previous terms and the RII maintenance by using the term “essential
Maintenance” in our FAA guidance, as we conduct our review to determine the impact this will have
on existing policy, guidance, operations specifications D091, and quarterly utilization reporting.
At the completion of these two reviews, we will update all policy and guidance to reflect the new
definition. We expect completion by January 31, 2009.

OIG Recommendation 4: Require inspectors to: (a) follow up to verify that deficiencies identified by
air carriers have been corrected at repair stations and (b) ensure that repair stations have adequate
processes for conducting audits, correcting identified deficiencies, and performing trend analyses of
findings.

FAA Response: Concur. Regulations make air carriers responsible for parts (a) and (b) of this
recommendation. Therefore, we will revise guidance to principal airworthiness inspectors to: (a) verify
that deficiencies identified by air carriers have been corrected at repair stations when conducting the
Air Transportation Oversight System (ATOS) element performance inspections at those repair
stations; and (b) make a determination that the air carrier has adequate processes for conducting audits,
correcting identified deficiencies, and performing trend analyses of findings when conducting ATOS
design assessments of elements 1.3.7, Outsource Organization, and/or 1.3.11, Continuous Analysis
and Surveillance. We will complete action on this recommendation by June 30, 2009.

OIG Recommendation 5: Develop controls to ensure inspectors are complying with inspector
guidance to document their findings in FAA's inspection database and review the inspection database
for previous findings.

FAA Response: Concur. We will provide guidance to ATOS data reviewers to include in their
reviews documentation of repair station findings and entry of repair station designators. We will
complete this action by March 31,2009. We will revise ATOS software to make repair station



Appendix. Agency Comments
                                                                                                 30


designators a required field where practicable. We will provide a date for completing this action as
soon as it can be determined based on other priorities for software revisions.

OIG Recommendation 6: Ensure air carriers document inspections conducted by air carriers’ on-site
technical representatives at heavy airframe maintenance providers.

FAA Response: Concur. The FAA believes that existing regulations and FAA guidance address this
recommendation. Title 14 CFR, sections 121.373 and 135.431, require the air carrier to establish and
maintain a Continuing Analysis and Surveillance System (CASS). CASS evaluates the performance
and effectiveness of a carrier’s inspection program, its program covering other maintenance,
preventive maintenance, and alterations, its process for the correction of any deficiency in those
programs. This is true regardless of whether those programs are carried out by the certificate holder or
by another person. CASS is a quality management system for air carriers and commercial operators
that monitors and analyzes the performance and effectiveness of inspection and maintenance
programs.

The FAA views CASS as a continuous, system safety-based, closed-loop cycle of surveillance,
investigation, data collection, analysis, corrective action, monitoring, and feedback for operators to use
to continually monitor and correct any deficiencies. The deficiencies described in the OIG report
should have been noted in the air carriers’ CASS program through the audits conducted by the air
carrier. CASS functions are built around principles of what is commonly referred to as risk
management. In CASS, the FAA expects a formal risk management process (system safety) with
safety and compliance as the top priorities.

The FAA will publish a notice placing special emphasis on ensuring that the on-site technical
representative audit findings are documented during performance assessments of element 1.3.7, and
element 1.3.11.

The FAA will evaluate the need for a possible “special emphasis” inspection on air carriers’ CASS
programs and their effectiveness. We expect our evaluation for “special emphasis” to be completed by
November 2008 and a notice to be issued by March 31, 2009.

OIG Recommendation 7: Encourage the industry best practice of using airworthiness agreements
between air carriers and repair stations that more clearly define maintenance procedures and
responsibilities.

FAA Response: Concur. The FAA will review existing maintenance agreements and evaluate for best
practices and determine what guidance needs to be incorporated in FAA Order 8900.1 and/or AC 120-
16, “Air Carrier Maintenance Programs.” We will complete this action by March 31, 2009.

S:\\ABUIOO\Share\OIG GAO\05-IIAir Carrier Outsourcing.doc:Anthony Williams:September 24,
2008




Appendix. Agency Comments
The following pages contain textual versions of the graphs and charts included in this
document. These pages were not in the original document but have been added here to
accommodate assistive technology.
                Air Carriers’ Outsourcing of Aircraft Maintenance

                           Section 508 Compliant Presentation

Figure 1. Percentage of Heavy Airframe Maintenance Checks Outsourced for
Nine Major Air Carriers From 2003 to 2007

 (Year) 2003    1,126 total checks; of this amount, 385 (or
                34 percent) were outsourced.
 (Year) 2004    1,212 total checks; of this amount, 455 (or
                38 percent) were outsourced.
 (Year) 2005    1,163 total checks; of this amount, 662 (or
                57 percent) were outsourced.
 (Year) 2006    1,208 total checks; of this amount, 815 (or
                67 percent) were outsourced.
 (Year) 2007    1,274 total checks; of this amount, 907 (or
                71 percent) were outsourced.

Source: Air carrier data


Figure 2. Locations of Repair Stations That Performed Heavy Airframe
Maintenance for Nine Major Air Carriers in 2007

Asia                79 repair stations
Canada              69 repair stations
Central America 81 repair stations
Mexico              17 repair stations
United States       661 repair stations
Source: Air carrier data
Table 2. Repair Stations That Performed Substantial Maintenance for Long
Periods Before First Certificate Management Office Inspection

Note: In the table below, data on number of aircraft and/or parts repaired before first
FAA visit were obtained from repair station and/or air carrier records.

Note: In the table below, data on time lapsed between approval for carrier use and
first FAA inspection were obtained from FAA inspection database.

Repair Station A               5 heavy airframe checks       8 months lapsed between
                               performed before first FAA    approval for carrier use and
                               visit.                        first FAA inspection.
Repair Station B               7 heavy airframe checks       5 months lapsed between
                               performed before first FAA    approval for carrier use and
                               visit.                        first FAA inspection.
Repair Station C               39 engines repair before first5 years lapsed between
                               FAA visit.                    approval for carrier use and
                                                             first FAA inspection.
Repair Station D               30 landing gears a year       At least 5 years lapsed between
                               repaired before first FAA     approval for carrier use and
                               visit.                        first FAA inspection.
Repair Station E (Note: 3      At least 81 landing gears for At least 5 years lapsed between
air carriers use this repair   one carrier repaired before   approval for carrier use and
station)                       first FAA visit.              first FAA inspection.

Repair Station E               At least 94 landing gears for At least 5 years lapsed between
                               one carrier repaired before   approval for carrier use and
                               first FAA visit.              first FAA inspection.

Repair Station E               At least 21 landing gears for At least 5 years lapsed between
                               one carrier repaired before   approval for carrier use and
                               first FAA visit.              first FAA inspection.
Figure 3. Chronology of FAA Inspections at a Repair Station


 • 2002: International Field Office visits in September and finds temperature and
   humidity uncontrolled in bearing room.

 • September to October of 2004: After joint Certificate Management Office and air
   carrier audit, Certificate Management Office recommends improved temperature
   and humidity controls in bearing room to prevent another engine failure. Asks
   International Field Office inspector to follow up.

 • June 2005: International Field Office inspector visits but does not follow up on
   Certificate Management Office’s request regarding bearing room.

 • January 2006: Office of Inspector General visit finds bearing room temperature
   uncontrolled.

 • March 14th through March 20th of 2006: Joint Certificate Management Office and
   air carrier audit finds same problem in bearing room, but Certificate Management
   Office does not record in database. International Field Office inspector visits but
   does not inspect bearing room.

 • August 2006: International Field Office inspector finds repair station cannot
   prove compliance with temperature and humidity requirements.

Source: FAA Inspection Records, Air Carrier Audit Records, and Office of Inspector
General On-Site Visit Records
Figure 4. Number of Inspection Reports Without Required Repair Station
Designator Code


Figure 4a. Reports Without Designator Codes After April 2005 Guidance
(May 2005 to June 2007)
Number of Inspection Reports With    604, or 67 percent
Designator Code
Number of Inspection Reports Without 293, or 33 percent
Designator Code



Figure 4b. Reports Without Designator Codes After June 2007 Reminder
(July–November 2007)
Number of Inspection Reports With    50, or 67 percent
Designator Code
Number of Inspection Reports Without 25, or 33 percent
Designator Code

Source: FAA inspection records
